                                                ADVISORY




RECOVERY OVERSIGHT ADVISORY
Bureau of Reclamation Private Wells Contracts




Report No.: RO-J-USBR-090-2011                  January 2011
                     OFFICE OF
                     INSPECTOR GENERAL
                     U.S.DEPARTMENT OF THE INTERIOR
                                                                                       JAN 1 1 2011

Memorandum

To:                    Chris Henderson
                       Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:
                       ~~~:~'I::~r                      Recovery Oversight

Subject:               Recovery Oversight Advisory - Bureau of Reclamation Private Wells Contracts
                       Report No. RO-J-USBR-090-2011

       This advisory, regarding Bureau of Reclamation (USBR) contracts for the drilling of
water wells, is part of our ongoing effort to oversee and ensure the accountability of funding
appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of 2009 (ARRA). In response to concerns raised within USBR, we reviewed
USBR' s decision to use $20 million in ARRA funds to install irrigation wells on private
property. The USBR decision was based on authority granted pursuant to the Reclamation States
Emergency Drought Relief Act (EDRA) of 1991.

       The San Luis Delta and Mendota Water Authority (SLDMWA) was established in 1992.
One of its primary purposes was the operation and maintenance responsibilities of certain USBR
Central Valley Project facilities. The SLDMWA consists of30 water agencies, encompasses
approximately 2,100,000 acres, and represents 29 Federal and exchange water service
contractors. The water agencies (districts) are located within the western San Joaquin Valley,
San Benito, and Santa Clara counties.

        On July 13, 2010, USBR completed Final Environmental Assessments and Findings of
No Significant Impact for the construction of up to 43 new wells within the SLDMWA. The
wells will be located in seven of the SLDMWA districts, and their installation will be funded by
ARRA. USBR determined the new wells are required to supplement water districts ' supplies in
years when surface water allocation is constrained. The decision was coordinated with the Office
of the Solicitor.

        Our review determined Section 103 of the EDRA I authorizes the drilling of permanent
wells to minimize losses and damages from drought conditions. The Office of the Solicitor
reviewed USBR's decision to provide drought assistance.

       No inappropriate activity was identified. This matter is provided to you for informational
purposes only. We will post this advisory on our Web site (www.doioig.gov/recovery/) and on
Recovery.gov. No action or response is requested for this advisory. Information contained in this

I   43 U.S.C. § 2211 (a).



                                      Recovery Oversight Office I Washington. DC
advisory may also be included in our semiannual reports to Congress. We performed our work in
accordance with the Quality Standards for Investigations adopted by the Council of the
Inspectors General on Integrity and Efficiency. Please contact me if you have any questions.

cc:    Deputy Secretary, Department of the Interior
       Director, Office of Executive Secretariat and Regulatory Affairs
       Commissioner, U.S. Bureau of Reclamation
       Assistant Secretary – Policy, Management, and Budget
       Director, Office of Acquisition and Property Management
       Acting Director, Office of Financial Management
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Audit Liaison, U.S. Bureau of Reclamation
       Recovery Coordinator, U.S. Bureau of Reclamation




                                                                                            2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
